No. ______
In the

Supreme Court of the United States
__________________
800 SERVICES, INC.,
v.
AT&T CORP.,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________

ROBERT L. SIRIANNI, JR.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(407) 388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
1) Whether the Third Circuit Court of Appeals
Erred in Failing to Refer this Questions of Tariff
Interpretation to the FCC Under the Doctrine of
Primary Jurisdiction.
2) Whether the Third Circuit Court of Appeals
Erred in Failing to Recognize the Numerous Instances
of Fraud on the Court Asserted by Petitioner.

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
800 Services, Inc.
AT&T Corp.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner
has no parent corporations and no publicly held
company that owns 10% or more of any entity.

iii
LIST OF PROCEEDINGS
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF NEW JERSEY
Civil No. 98-cv-01539
800 SERVICES, INC. v. AT&T CORP.
Order dated 9/20/2000 Respondent’s Motion for
Summary Judgment GRANTED.
Unpublished Opinion.
THIRD CIRCUIT COURT OF APPEALS
Civil No. 00-3519
800 SERVICES, INC. v. AT&T CORP.
Judgment dated 2/12/2002 District Court’s Order
AFFIRMED.
800 Servs. v. AT&T Corp., 30 F. App’x 21 (3d Cir.
2002).
THIRD CIRCUIT COURT OF APPEALS
Case No. 19-1294
800 SERVICES, INC. v. AT&T CORP.
Judgment dated 12/19/2019 Summary Affirmance DENIED.
800 Servs. v. AT&T Corp., 822 F. App’x 98 (3d Cir.
2020).
THIRD CIRCUIT COURT OF APPEALS
Case No. 19-1294
800 SERVICES, INC. v. AT&T CORP.
Judgment dated 8/20/2020 District Court’s Order
AFFIRMED and Petitioner’s Motion to Vacate
DENIED.
800 Servs. v. AT&T Corp., 822 F. App’x 98 (3d Cir.
2020).

iv
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT. . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. Bringing the Claims to Federal Court . . . . . . 5
B. Concise Statement of Facts Pertinent to the
Questions Presented . . . . . . . . . . . . . . . . . . . . 6
C. Procedural History . . . . . . . . . . . . . . . . . . . . . 9
REASONS TO GRANT THIS PETITION. . . . . . . . 12
I. The Third Circuit Court of Appeals Erred In
Failing to Apply the Doctrine of Primary
Administrative Jurisdiction when it Affirmed
the District Court’s Refusal to Reopen 800
Services’ Claim . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. The FCC maintains primary administrative
jurisdiction over the interpretation of Tariff
No. 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

v
B. The Third Circuit erred in failing to refer the
interpretation of Tariff No. 2 to the Federal
Communications Commission. . . . . . . . . . . . 16
II. The Third Circuit Court of Appeals Erred in
Failing to Recognize the Numerous Instances of
Fraud on the Court Asserted by Petitioner . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(August 20, 2020) . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court District of New Jersey
(January 8, 2019) . . . . . . . . . . . . . App. 7
Appendix C Memorandum Opinion in the United
States Court of Appeals for the Third
Circuit
(February 12, 2002) . . . . . . . . . . . App. 9
Appendix D Letter Opinion in the United States
District Court District of New Jersey
(April 27, 2018) . . . . . . . . . . . . . . App. 14
Appendix E Order in the United States Court of
Appeals for the Third Circuit
(December 19, 2019) . . . . . . . . . . App. 37
Appendix F Certification of Alfonse Inga in the
United States Court of Appeals for the
Third Circuit
(May 8, 2020). . . . . . . . . . . . . . . . App. 39

vi
TABLE OF AUTHORITIES
Cases
800 Servs. v. AT&T Corp.,
30 F. App’x 21 (3d Cir. 2002) . . . . . . . . . . . . . . . . 1
800 Servs. v. AT&T Corp.,
822 F. App’x 98 (3d Cir. 2020) . . . . . . . . . . . . . . . 1
Combined Companies, Inc. v. AT&T Corp.,
1996 U.S. App. LEXIS 15057, No. 96-5185
(3d Cir. May 31, 1996) . . . . . . . . . . . . . . . . . . . . 18
Combined Companies, Inc. v. AT&T Corp.,
No. 95-908 (D.N.J. May 19, 2005) . . . . . . . . 17, 18
Combined Cos. v. AT&T Corp.,
No. 95-908 (WGB),
2006 U.S. Dist. LEXIS 35258
(D.N.J. May 31, 2006) . . . . . . . . . . . . . . . . . . . . . 17
Far E. Conference v. United States,
342 U.S. 570 (1952). . . . . . . . . . . . . . . . . . . . . . . 13
Grable & Sons Metal Products, Inc. v. Darue
Eng’g & Mfg, 545 U.S. 308 (2005) . . . . . . . . . . . . 2
Herring v. United States,
424 F.3d 384 (3d Cir. 2005) . . . . . . . . . . 19, 20, 21
Local Union No. 189, Amalgamated Meat
Cutters & Butcher Workmen v. Jewel Tea Co.,
381 U.S. 676 (1965). . . . . . . . . . . . . . . . . 12, 13, 16
United States v. Phila. Nat’l Bank,
374 U.S. 321 (1963). . . . . . . . . . . . . . . . . . . . . . . 13

vii
United States v. RCA,
358 U.S. 334 (1959). . . . . . . . . . . . . . . . . . . . 14, 15
United States v. W. Pac. R.R. Co.,
352 U.S. 59 (1956). . . . . . . . . . . . . . . . . . . . . 13, 14
Statutes
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
47 U.S.C.S. § 201 . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
47 U.S.C.S. § 203 . . . . . . . . . . . . . . . . . . . . . . . 3, 7, 15
47 U.S.C.S. § 204(a)(3) . . . . . . . . . . . . . . . . . . . . . 5, 15
Other Authorities
E.H. Schopler, Annotation, The Doctrine of Primary
Administrative Jurisdiction as Defined and
Applied by the Supreme Court, 38 L. Ed. 2d 796
(1974). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Tariffs (Last accessed on December 18, 2020),
FCC.COM, www.fcc.gov/general/tariffs-0 . . . . . . . 7

1
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully requests that a Writ of
Certiorari be issued to review the United States Third
Circuit Court of Appeals’ decision dismissing
Petitioner’s Motion to Vacate and affirming the United
States District Court for the District of New Jersey’s
decision granting Respondent’s Motion for Summary
Judgment.
OPINIONS BELOW
The August 20, 2020 decision from the Third Circuit
Court of Appeals can be found at 800 Servs. v. AT&T
Corp., 822 F. App’x 98 (3d Cir. 2020) and is reproduced
in the Appendix at 1-6.
The January 8, 2019 order without a published
opinion from the United States District Court for the
District of New Jersey is reproduced in the Appendix at
7-8.
The February 12, 2002 decision from the Third
Circuit Court of Appeals can be found at 800 Servs. v.
AT&T Corp., 30 F. App’x 21 (3d Cir. 2002) and is
reproduced in the Appendix at 9-13.
The September 20, 2000 decision without a
published opinion from the United States District
Court for the District of New Jersey is reproduced in
the Appendix at 14-36.
BASIS FOR JURISDICTION IN THIS COURT
The Third Circuit Court of Appeals affirmed the
decision of the United States District Court for the
District of New Jersey on August 20, 2020. This Court

2
has jurisdiction pursuant to statutory provisions 28
U.S.C. § 1254(1) to review on writ of certiorari the
decision of the United States Court of Appeals for the
Third Circuit. This matter brings questions of law that
are unsettled.
In Grable & Sons Metal Products, Inc. v. Darue
Eng’g & Mfg, 545 U.S. 308 (2005), this Court
articulated a standard for federal question jurisdiction.
The federal issue must be “actually disputed and
substantial,” and it must be one that the federal courts
can entertain without disturbing the balance between
federal and state judicial responsibility. Id. at 314.
Here, that question is whether the Third Circuit erred
in failing to refer the case to the FCC for purposes of
statutory interpretation, pursuant to the doctrine of
primary jurisdiction.
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1254(1)
Cases in the courts of appeals may be reviewed
by the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the
petition of any party to any civil or criminal
case, before or after rendition of judgment or
decree; (2) By certification at any time by a court
of appeals of any question of law in any civil or
criminal case as to which instructions are
desired, and upon such certification the
Supreme Court may give binding instructions or
require the entire record to be sent up for
decision of the entire matter in controversy.

3
47 U.S.C.S. § 203
(a) Filing; public display. Every common carrier,
except connecting carriers, shall, within such
reasonable time as the Commission shall
designate, file with the Commission and print
and keep open for public inspection schedules
showing all charges for itself and its connecting
carriers for interstate and foreign wire or radio
communication between the different points on
its own system, and between points on its own
system and points on the system of its
connecting carriers or points on the system of
any other carrier subject to this Act when a
through route has been established, whether
such charges are joint or separate, and showing
the classifications, practices, and regulations
affecting such charges. Such schedules shall
contain such other information, and be printed
in such form, and be posted and kept open for
public inspection in such places, as the
Commission may by regulation require, and
each such schedule shall give notice of its
effective date; and such common carrier shall
furnish such schedules to each of its connecting
carriers, and such connecting carriers shall keep
such schedules open for inspection in such public
places as the Commission may require.
(b) Changes in schedule; discretion of
Commission to modify requirements. (1) No
change shall be made in the charges,
classifications, regulations, or practices which
have been so filed and published except after one
hundred and twenty days notice to the

4
Commission and to the public, which shall be
published in such form and contain such
information as the Commission may by
regulations prescribe. (2) The Commission may,
in its discretion and for good cause shown,
modify any requirement made by or under the
authority of this section either in particular
instances or by general order applicable to
special circumstances or conditions except that
the Commission may not require the notice
period specified in paragraph (1) to be more than
one hundred and twenty days. (c) Overcharges
and rebates. No carrier, unless otherwise
provided by or under authority of this Act, shall
engage, or participate in such communication
unless schedules have been filed and published
in accordance with the provisions of this Act and
with the regulations made thereunder; and no
carrier shall (1) charge, demand, collect, or
receive a greater or less or different
compensation for such communication, or for
any service in connection therewith, between the
points named in any such schedule than the
charges specified in the schedule then in effect,
or (2) refund or remit by any means or device
any portion of the charges so specified, or
(3) extend to any person any privileges or
facilities in such communication, or employ or
enforce any classifications, regulations, or
practices affecting such charges, except as
specified in such schedule. (d) Rejection or
refusal. The Commission may reject and refuse
to file any schedule entered for filing which does
not provide and give lawful notice of its effective

5
date. Any schedule so rejected by the
Commission shall be void and its use shall be
unlawful. (e) Penalty for violations. In case of
failure or refusal on the part of any carrier to
comply with the provisions of this section or of
any regulation or order made by the Commission
thereunder, such carrier shall forfeit to the
United States the sum of $6,000 for each such
offense, and $300 for each and every day of the
continuance of such offense.
47 U.S.C.S. § 204(a)(3)
A local exchange carrier may file with the
Commission a new or revised charge,
classification, regulation, or practice on a
streamlined basis. Any such charge,
classification, regulation, or practice shall be
deemed lawful and shall be effective 7 days (in
the case of a reduction in rates) or 15 days (in
the case of an increase in rates) after the date on
which it is filed with the Commission unless the
Commission takes action under paragraph (1)
before the end of that 7-day or 15-day period, as
is appropriate.
STATEMENT OF THE CASE
A. Bringing the Claims to Federal Court.
Petitioner initially filed his claims in the United
States District Court for the District of New Jersey on
April 6, 1998. (Dkt. 1 Complaint). On January 28, 2000,
Respondent AT&T Corp filed a Motion for Summary
Judgment under Federal Rule of Civil Procedure 56.
(Dkt. 40). That Motion was granted on September 20,

6
2000. (Dkt. 53). Petitioner timely filed an appeal to the
United States Court of Appeals for the Third Circuit on
October 13, 2000. (Dkt. 54). On February 12, 2002, the
Third Circuit Court of Appeals affirmed the District
Court’s grant of summary judgment. (App. 9-13). On
April 27, 2018, Petitioner filed a motion to vacate the
judgment pursuant to Federal Rule of Civil Procedure
60(b), arguing that the original ruling was tainted by
fraud on the court. (App. 2-6). AT&T also filed a motion
for summary affirmance which was denied by Judges
Chagares, Restrepo, and Scirico on December 19, 2019.
(App. 37). These judges ordered that the case proceed
to oral argument before they were replaced. (App. 1).
Petitioner’s motion to vacate was denied by the Third
Circuit Court of Appeals on August 20, 2020. (App. 6)
This appeal follows.
B. Concise Statement of Facts Pertinent to the
Questions Presented.
This case presents a complex, extremely technical
set of facts concerning a dispute that occurred several
decades ago. The following paragraphs are an attempt
to summarize these facts in a clear and concise way so
that the law may be properly applied.
The Petitioner (“800 Services, Incorporated” or “800
Services”) served as an “aggregator” of
telecommunications services for Respondent (“AT&T
Corporation” or “AT&T”) in the early to mid 1990s.
(App. 9). The purpose of an aggregator is to pool
telecommunications services in order to provide a
discount to the ultimate users of these services, known
as end-users. (App. 9). AT&T is a provider of longdistance telecommunications services and made use of

7
many aggregators during this time period. Under this
contractual relationship, 800 Services was required to
meet annual revenue commitments to AT&T. (App. 10).
Note that for the purposes of this case, references to
AT&T’s “Customer(s)” refers to the aggregators, not the
end-users.
The relationship between AT&T and 800 Services
was predominately contractual in nature. However,
this relationship is conducted within the confines of
federal law. (App. 9). Title II of the Communications
Act of 1934 (“Title II”) gives the the Federal
Communications Commission, or FCC, the right to
oversee all charges, regulations, practices, and
classifications related to the telecommunications
industry. See 47 U.S.C.S. § 203. In this context, one of
the most important functions of the FCC is the
issuance and enforcement of tariffs. According to the
FCC, these tariffs;
contain the rates, terms and conditions of
certain services provided by telecommunications
carriers. The most common tariff filed at the
FCC is for interstate local access service. These
tariffs are filed by local exchange carriers, or
LECs. Long-distance companies and others pay
the rates set out in these tariffs to LECs for
access to local networks at the originating and/or
terminating ends of a long-distance call.
See Tariffs (Last accessed on December 18, 2020),
FCC.COM, www.fcc.gov/general/tariffs-0. The relevant
tariff in this case is Tariff No. 2, which required 800
Services to pay AT&T for shortfall charges in the event

8
that 800 Services failed to meet its revenue
commitment. (App. 13).
In July 1994, 800 Services agreed to a restructure
of its current contractual arrangement with AT&T.
(Appellant’s Reply Br. at 4). Since that date, Phillip
Okin (“Mr. Okin”), the CEO of 800 Services, has
consistently asserted that he was intentionally misled
by AT&T as to the terms and conditions of this
restructuring agreement, particularly as it relates to
AT&Ts relationship to 800 Services end-users.
(Appellant’s Reply Br. at 4). Furthermore, significant
questions have been raised as to the legality of AT&T’s
interpretation of the restructure agreement under the
terms of Tariff No. 2. (Appellant’s Reply Br. at 6).
In 1995, 800 Services failed to meet its revenue
commitments and consequently was assessed shortfall
charges under Tariff No. 2. (App. 13). Petitioner
asserted that this was due to AT&Ts usage of its own
telemarketers to solicit 800 Services end-users. (Dkt.
60-4 at 50). It was AT&T’s position that 800 Services
plan was a Post June 17th 1994 plan therefore making
it susceptible to prorated shortfall, while 800 Services
claims it’s plan was a pre June 17th 1994 plan and
therefore penalty immune from prorated shortfall.
(App. 21-22). 800 Services requested a second
restructure but his request was denied by AT&T
(Appellant’s Reply Br. at 18). Petitioner asserts that
this denial constituted a violation of Tariff No. 2, and
further claims that AT&T fraudulently told Mr. Okin
that 800 Services did not qualify for a penalty-free
restructure. (Appellant’s Reply Br. at 18). AT&T denied
these claims and maintained that the denial was legal.

9
(Appellant’s Reply Br. at 18). Mr. Okin has asserted
that AT&T counsel knowingly lied to Judge Politan
that Tariff No. 2 allowed AT&T to assess shortfall
charges on 800 Services’ end-users. (Appellant’s Reply
Br. at 4).
In any event, AT&T assessed a shortfall penalty of
$382,651.05 on 800 Services for its failure to meet
revenue commitments. (Appellant’s Reply Br. at 4). 800
Services refused to pay these shortfall charges, arguing
that they were illegal under Tariff No. 2. (Appellant’s
Reply Br. at 12). 800 Services did not need to meet
prorated shortfall. (App. 47). AT&T counsel had
intentionally misled Judge Politan that the Tariff No.
2 allowed AT&T to charge shortfall to 800 Services endusers, this action effectively put 800 Services out of
business. (Appellant’s Reply Br. at 12). As a result,
AT&T proceeded to charge this amount to 800 Services
end-users. (Appellant’s Reply Br. at 12). This action
effectively put 800 Services out of business.
(Appellant’s Reply Br. at 13).
C. Procedural History
On April 6, 1998, 800 Services filed suit against
AT&T in the United States Dictrict Court for the
District of New Jersey. (Dkt. 1). Petitioner advanced
twelve counts, including “allegations of unjust
enrichment, slander and libel under New Jersey state
law, intentional interference with prospective economic
advantage and similar interference with contractual
relations, unfair competition/trade libel and various
claims under 201, 202 and 203 of the Communications
Act.” (App. 10).

10
In return, AT&T filed a counterclaim against 800
Services for unpaid telephone usage charges, shortfall
charges resulting from contractual obligations and
prejudgment interest. (App. 10). AT&T then filed a
motion for summary judgment under Federal Rule of
Civil Procedure 56. (Dkt. 40). On September 18, 2000,
the District Court granted AT&T’s motion for summary
judgment and awarded judgment on the counterclaim.
(Dkt. 53).
On October 13, 2000, 800 Services filed an appeal to
the United States Court of Appeals for the Third
Circuit. (Dkt. 54). On February 12, 2002, the Third
Circuit Court of Appeals affirmed the ruling of the
District Court. (App. 9-13).
On April 27, 2018, 800 Services filed a Motion to
Reopen its case against AT&T in the United States
District Court for the District of New Jersey. (Dkt. 60).
800 Services alleged—among many other complaints—
that AT&T violated its agreements under Tariff No. 2
by charging $382,651.05 to 800 Services’ end-users.
(Appellant’s Reply Br. at 4), and that AT&T knowingly
lied to Judge Politan that the Tariff allowed them to
charge shortfall to 800 Services end-users. Tariff No. 2
states that “shortfall and/or termination liability are
the responsibility of the Customer.” (Appellant’s Reply
Br. at 12). Petitioner further cited the 2003 ruling of
the FCC stating that;
Because these end users did not choose AT&T as
their primary interchange carrier, AT&T had
neither proprietary interest in these individual
end-user locations nor an expectation of revenue
from them.

11
(Appellant’s Reply Br. at 12). 800 Services additionally
claimed that AT&T illegally denied their 1995 request
for a restructure and committed fraud on the court by
misleading the judges in the 2002 case. (Appellant’s
Reply Br. at 19). 800 Services also asserts that it
attempted to transfer its traffic to CT-516 a much
higher paying discount, but AT&T illegally refused to
process its request. AT&T counsel then lied to Judge
Politan that Mr. Okin admitted in his deposition that
he never attempted to transfer his traffic to CT 516.
(Appellant’s Reply Br. at 23).
On December 19, 2019, AT&T motioned for
summary affirmance from the Court. This motion was
denied. (App. 37-38). Furthermore, Judges Chagares,
Restrepo, and Scirico approved the case for oral
argument. (App. 37-38). These judges were
subsequently replaced prior to oral argument.
On January 8, 2019, the District Court denied 800
Services Motion to Reopen. (App. 7-8). 800 Services
subsequently appealed to the Third Circuit Court of
Appeals on February 1, 2019. (Dkt. 72). On August 20,
2020, the Third Circuit affirmed the District Court’s
refusal to reopen the case. (App. 1-6).
This Petition for Writ of Certiorari followed.

12
REASONS TO GRANT THIS PETITION
I. The Third Circuit Court of Appeals Erred In
Failing to Apply the Doctrine of Primary
Administrative Jurisdiction when it Affirmed
the District Court’s Refusal to Reopen 800
Services’ Claim.
The Third Circuit Court of Appeals erred when it
affirmed the District Court’s decision to reopen 800
Services’ claim against AT&T. Under the doctrine of
primary administrative jurisdiction, the United States
District Court for the District of New Jersey should
have referred the case to the FCC for interpretation of
Tariff No. 2 before proceeding any further with the
litigation.
Primary administrative jurisdiction requires courts
to submit questions that are within the exclusive
administrative capacity of agencies to the relevant
agency for interpretation. This Court elucidated the
specifics of the doctrine in Local Union 189, stating
that;
[the] doctrine of primary jurisdiction applies
where a claim is originally cognizable in the
courts, and comes into play whenever
enforcement of the claim requires the resolution
of issues which, under a regulatory scheme, have
been placed within the special competence of an
administrative body; in such a case the judicial
process is suspended pending referral of such
issues to the administrative body for its views.
The doctrine is based on the principle that in
cases raising issues of fact not within the

13
conventional experience of judges or cases
requiring the exercise of administrative
discretion, agencies created by Congress for
regulating the subject matter should not be
passed over, and requires judicial abstention in
cases where protection of the integrity of a
regulatory scheme dictates preliminary resort to
the agency which administers the scheme.
Local Union No. 189, Amalgamated Meat Cutters &
Butcher Workmen v. Jewel Tea Co., 381 U.S. 676, 68485 (1965) (citing United States v. W. Pac. R.R. Co., 352
U.S. 59, 63-64 (1956), Far E. Conference v. United
States, 342 U.S. 570, 574 (1952), United States v. Phila.
Nat’l Bank, 374 U.S. 321, 353 (1963)) (emphasis
added).
The United States Supreme Court Reports,
Lawyers’ Edition summarizes primary jurisdiction as
follows;
In its essence the doctrine requires that a
question within the peculiar competence of a
federal administrative agency should be
determined by such agency either prior to the
institution or during the pendency of a federal
action in which the court has jurisdiction of the
subject matter and in which such question arises
See E.H. Schopler, Annotation, The Doctrine of Primary
Administrative Jurisdiction as Defined and Applied by
the Supreme Court, 38 L. Ed. 2d 796, 804-14 (1974).
This Court has previously found that “[the] doctrine
of primary jurisdiction does more than prescribe the
mere procedural timetable of the lawsuit. It is a

14
doctrine allocating the law-making power over certain
aspects of commercial relations. It transfers from court
to agency the power to determine some of the incidents
of such relations.” United States v. W. Pac. R.R. Co.,
352 U.S. 59, 65 (1956).
A. The FCC maintains primary administrative
jurisdiction over the interpretation of
Tariff No. 2.
This Court has held that the presence of a
“pervasive regulatory scheme” in the industry in
question is the primary marker of whether primary
administrative jurisdiction applies. In RCA, this Court
found that if an industry possesses “no pervasive
regulatory scheme, and no rate structures to throw out
of balance, sporadic action by federal courts can work
no mischief. The justification for primary jurisdiction
in an administrative agency accordingly disappears.”
United States v. RCA, 358 U.S. 334, 350 (1959).
The FCC, as the administrative agency responsible
for regulating the telecommunications industry, has
primary jurisdiction over the rates, charges, and
regulations that apply to this case. Title II of the
Federal Communications Act of 1934 states that;
All charges, practices, classifications, and
regulations for and in connection with such
communication service, shall be just and
reasonable, and any such charge, practice,
classification, or regulation that is unjust or
unreasonable is hereby declared to be unlawful:
Provided, That communications by wire or radio
subject to this Act may be classified into day,

15
night, repeated, unrepeated, letter, commercial,
press, Government, and such other classes as
the Commission may decide to be just and
reasonable, and different charges may be made
for the different classes of communications:
Provided further, That nothing in this Act or in
any other provision of law shall be construed to
prevent a common carrier subject to this Act
from entering into or operating under any
contract with any common carrier not subject to
this Act, for the exchange of their services, if the
Commission is of the opinion that such contract
is not contrary to the public interest.
See 47 U.S.C.S. § 201 (emphasis added).
Title II constitutes a “pervasive regulatory scheme”
according to this Court’s ruling in RCA. It regulates
nearly every aspect of the industry, notably including
ratemaking, as well as all “practices, classifications,
and charges.” Id. In fact, it goes so far as to grant the
FCC the right to prohibit parties subject to its
jurisdiction from engaging in contractual relationships
with parties outside of that jurisdiction. Id. As a result
of this “pervasive regulatory scheme,” the FCC holds
primary jurisdiction over interpretations of its tariffs.
Title II requires all common carriers to file with the
FCC schedules, known as tariffs, “showing all charges”
and “showing the classifications practices, and
regulations affecting such charges.” 47 U.S.C.S. § 203.
Tariffs certified by the FCC regulate the “charge,
classification, regulation, or practice” present in the
contractual relationship between long-distance
providers and aggregators. See 47 U.S.C.S. § 204(a)(3).

16
Thus, these tariffs are within the “peculiar
competency” of the FCC, and the FCC’s right to
interpret them supersedes that of the federal and state
courts.
This Court should find that the FCC had the
exclusive right to interpret Tariff No. 2, i.e. the tariff
that regulated the rates and shortfall charges between
AT&T and 800 Services. The interpretation of this
tariff cuts to the very core of this case. The question of
whether or not AT&T was allowed to charge 800
Services’ end-users the shortfall charges AT&T
assessed on 800 Services has proven to be one of the
most contentious issues in the dispute. This Court
should find that question to be within the unique
purview of the FCC.
B. The Third Circuit erred in failing to refer
the interpretation of Tariff No. 2 to the
Federal Communications Commission.
This Court should find that the Third Circuit erred
when it failed to vacate the District Court’s opinion and
refer the interpretation of Tariff No. 2 to the FCC.
Since Tariff No. 2 formed part of the “pervasive
regulatory scheme” enacted by Congress through the
FCC, the United States District Court for the District
of New Jersey should have directed all questions
regarding ambiguities within that treaty to the FCC.
On appeal, the Third Circuit should have vacated the
District Court’s decision and suspended the litigation
“pending referral of such issues to the administrative
body for its views.” Local Union No. 189, 381 U.S. at
684-85.

17
This action would have been far from
unprecedented in the Third Circuit. (App. 39-58). In
Combined Companies the Third Circuit decided a case
remarkably similar to the dispute at hand. See
Combined Cos. v. AT&T Corp., No. 95-908 (WGB), 2006
U.S. Dist. LEXIS 35258 (D.N.J. May 31, 2006). The
plaintiff in that case, Combined Companies
Incorporated, or “CCI,” sued AT&T for refusing their
request for a transfer of services. Id. at 6. AT&T denied
CCI’s request for transfer unless CCI paid a deposit to
ensure that AT&T did not suffer from any revenue
shortfalls. Id. CCI claimed that the denial of their
request amounted to a violation of the terms of the
governing tariff and filed suit in the United States
District Court for the District of New Jersey. Id. at 7.
Judge Politan—the same judge who heard this very
case at the District Court level—issued a preliminary
injunction against AT&T requiring it to allow the
transfer. Id. at 8. However, citing primary jurisdiction,
the District Court withheld its ultimate decision until
the FCC had an opportunity to rule on the transfer.
The District Court found that “the proper
interpretation of the tariff was uniquely within the
expertise and experience of the agency.” Combined
Companies, No. 95-908 at 8-9 (citing Combined
Companies, Inc. v. AT&T Corp., No. 95-908 at 20
(D.N.J. May 19, 2005)). Furthermore, the District
Court held that “the proper application of
administrative discretion to that issue will best protect
against inconsistencies of outcome.” Id.
The parties spent several years spent waiting for
the FCC to issue an interpretation. Eventually, the

18
District Court granted a preliminary injunction stating
that, until the FCC had issued its ruling, AT&T was
required to grant CCI’s transfer request. Combined
Companies, No. 95-908 at 9-10 (citing Combined
Companies, Inc. v. AT&T Corp., 1996 U.S. App. LEXIS
15057, No. 96-5185 at 3 (3d Cir. May 31, 1996)
(unpublished opinion)).
On appeal, the Third Circuit held that “the District
Court’s ruling contradicted its previous finding that
primary jurisdiction required a determination by the
FCC and therefore, vacated the District Court’s ruling,
referring the inquiry regarding the CCI/PSE transfer
back to the FCC.” Combined Companies, No. 95-908 at
9-10 (citing Combined Co. v. AT&T Corp., No. 96-5185,
1996 U.S. App. LEXIS 15057 (3d Cir. May 31, 1996)
(unpublished opinion)) (emphasis added). The District
Court subsequently issued an order staying the case
until the FCC issued a ruling. (App. 54).
This Court should find that the United States
District Court erred when it failed to refer the issue of
tariff interpretation to the FCC. The District Court
should have afforded 800 Services the same treatment
it gave to CCI in Combined Companies and declined to
issue a ruling until the FCC had reached the decision.
Instead, the District Court not only failed to issue a
stay pending the resolution of the tariff interpretation
issue, it failed to refer these questions to the FCC at
all. In doing so, it usurped the FCC’s primary
jurisdiction in matters of tariff interpretation.
Moreover, this Court should find that the Third
Circuit erred in denying 800 Services’ request to reopen
its case. In Combined Companies, the Third Circuit

19
vacated the decision of the District Court and referred
the inquiry back to the FCC for deliberation. Since the
national scope of these regulations makes inconsistent
rulings highly undesirable, the Third Circuit should
have deferred to the doctrine of primary jurisdiction
and referred the tariff issue to the FCC.
In Combined Companies, the Third Circuit placed
enough weight on the doctrine of primary jurisdiction
that it was willing to vacate the decision of the District
Court. In that case, the FCC’s primary jurisdiction over
the matter was found to be sufficiently powerful as to
warrant staying the case for over seven years in order
to provide the FCC time to issue an interpretation. All
that 800 Services is requesting is that it receive the
same treatment as the Third Circuit has given to
others who have found themselves in its position. As a
result, this Court should vacate the decision of the
Third Circuit and remand the case back to the District
Court of New Jersey so that it may ultimately be
referred to the FCC.
II. The Third Circuit Court of Appeals Erred in
Failing to Recognize the Numerous Instances
of Fraud on the Court Asserted by Petitioner.
This Court should find that the Third Circuit Court
of Appeals failed to correctly implement the test found
in Herring and incorrectly denied 800 Services’ claim of
fraud on the Court. Herring v. United States outlined
a four-part test for proving fraud on the court. The
Petitioner must show “(1) an intentional fraud; (2) by
an officer of the court; (3) which is directed at the court
itself; and (4) in fact deceives the court.” Herring v.
United States, 424 F.3d 384, 386 (3d Cir. 2005). All the

20
conditions of Herring were also met when AT&T
counsel intentionally misled Judge Politan about the
plans true effective date. (App. 45).1
800 Services has satisfied these requirements.
AT&T intentionally committed fraud when it misled
the Court as to the nature of its 1994 restructuring
agreement with 800 Services. (Appellant’s Reply Br. at
6). At trial, AT&T’s counsel asserted that Tariff No. 2
was governed by an interpretation strikingly different
than the one previously advanced by eleven top AT&T
executives and legal counsel. (Appellant’s Reply Br. at
6-7).
Over 60 hours of audio recordings of these executive
discussions exist. (Appellant’s Reply Br. at 8). These
hours of audio show a broad consensus between the
AT&T executives that 800 Services’ interpretation of
Tariff No. 2 was accurate. (Appellant’s Reply Br. at 8).
The tapes show that AT&T was operating under 800
Services’ understanding of Tariff No. 2 when they
extended their offer to Petitioner. (Appellant’s Reply
Br. at 7-9). This fraud was advanced by AT&T’s
Counsel at trial, satisfying the second and third
elements. (Appellant’s Reply Br. at 6-7). Additionally,

1

AT&T counsel was aware 800 Services plan was not new (App.
46). Mr. Inga, the President of CCI, has seconded Mr. Okin’s claim
that many judges on the District Court of New Jersey are biased
towards AT&T. Mr. Inga has stated for the record that he “was
tipped off that AT&T was bragging about fixing Judge Wigenton
and was provided substantial details. It was uncovered that Judge
Wigenton’s husband Kevin was an AT&T attorney during the tariff
infraction . . . Kevin’s Organization received hundreds of
thousands by AT&T.” (App. 56)

21
all four conditions of Herring are met when AT&T
counsel knowingly lied to Judge Politan that the Tariff
allowed them to charge shortfall to 800 Services endusers. (Appellant’s Reply Br. at 28).
Lastly, this fraud did, in fact, deceive the Third
Circuit Court of Appeals. See (Appellant’s Reply Br. at
1-2). The District Court and the Third Circuit mostly
accepted the claims of AT&T’s counsel on their face.
(App. 9-36). The Third Circuit cited 800 Services’ “lack
of evidence” as grounds for its denial. (App. 12-13). This
successful execution of the fraud satisfies the fourth
element of the Herring test.
800 Services also satisfies all four requirement of
Herring due to Respondent Counsel’s statement that
Mr. Okin admitted in his deposition that he never
attempted to transfer his Traffic to CT-516, see reply
brief. (Appellant’s Reply Br. at 22). This would allow
800 Services’ commission to go from 28% to 66%.
(Appellant’s Reply Br. at 16). For further evidence of
AT&T’s fraudulent behavior, see Petitioner’s Appendix
at App. 39-58.2 As a result, this Court should overturn
2

“My companies motioned to go to damages in 2018 as the sole
Third Circuit item to be interpreted was resolved and the FCC
officially removed the moot 2006 NFDC referral from circulation.
I was tipped off that AT&T was bragging about fixing Judge
Wigenton and was provided substantial details. It was uncovered
that Judge Wigenton’s husband Kevin was an AT&T attorney
during the tariff infraction, that AT&T helped put through law
school. Kevin’s Organization received hundreds of thousands by
AT&T. Evidence showed the Wigenton’s are strong supporters of
their college Norfolk State University. AT&T hired hundreds of
students from Norfolk State despite it being a very low
academically ranked college. Judge Wigenton recused her Court as

22
the Third Circuit’s decision.
CONCLUSION
For the foregoing reasons, this Petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(407) 388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner
Dated: January 4, 2021.

soon as her Court was presented with these facts . . . Judge
Wigenton recused her Court on June 5, 2018 and Judge Chesler
took over and oral argument on June 6, 2018. Judge Chesler said
in less than one day he read 10 orders and 10,000 pages of exhibits
and directed my company to file a writ of mandamus at DC Court
to force the FCC to interpret the moot 2006 referral . . . Multiple
DC Court attorneys warned that if my companies filed a writ of
mandamus to compel the FCC to rule on a case that was already
DC Court determined against AT&T in 2005, the DC Court would
issue sanctions and ethics charges against my counsel. AT&T
counsel Richard Brown has a copy of these emails with the DC
Court staff. The DC Counsels stated the case is not a remand, it is
a petition for review correction of the FCC on the sole issue and
the case is over.” App.56.

